AUDIT OF LEGAL FEES PAID TO
 PEABODY & ARNOLD, L.L.P.



      Audit Report No. 99-033
          August 5, 1999




     OFFICE OF AUDITS

OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                         Office of Audits
Washington, D.C. 20434                                                           Office of Inspector General



   DATE:                        August 5, 1999

    MEMORANDUM TO:              James T. Lantelme
                                Assistant General Counsel
                                Legal Operations Section
                                Legal Division




   FROM:                        Steven A. Switzer
                                Deputy Inspector General

   SUBJECT:                     Audit of Legal Fees Paid to Peabody & Arnold, L.L.P.
                                (Audit Report No. 99-033)


   This report presents the results of an audit of fees paid to Peabody & Arnold, L.L.P., a law firm
   hired by the FDIC to provide legal services. The independent public accounting firm of Mir-Fox
   & Rodriguez conducted the audit. The objective of the audit was to determine whether the law
   firms legal bills were: (1) adequately supported by source documentation, (2) prepared in
   accordance with applicable agreements, and (3) representative of the cost of services and
   litigation that had been approved in advance by the Legal Division. The audit covered all
   payments to Peabody & Arnold, L.L.P., from January 1, 1998 through December 31, 1998,
   which included 87 fee bills totaling $3,128,208.

   The Legal Division provided a written response on July 21, 1999 (see Appendix II) to a draft of
   this report that furnished the requisites for a management decision on each of the
   recommendations. In its response, the Legal Division agreed to disallow questioned costs
   totaling $4,037. The OIG’s evaluation of management’s comments is presented in Appendix I.

   If you have any questions, please call me at (202) 416-2543 or Allan H. Sherman, Deputy
   Assistant Inspector General, at (202) 416-2522.
                        INDEPENDENT ACCOUNTANTS’ REPORT
                       ON APPLYING AGREED-UPON PROCEDURES

Office of the Inspector General
Federal Deposit Insurance Corporation:

We have performed the procedures (Procedures) enumerated in the Appendix, which were agreed to by
the Office of the Inspector General (OIG), Federal Deposit Insurance Corporation (FDIC), solely to assist
OIG in determining whether the fee bills submitted by Peabody & Arnold and paid by the FDIC from
January 1, 1998 through December 31, 1998, were adequately supported, consistent with the terms and
conditions of the governing agreements and were representative of the cost of services and litigation
which was approved in advance. This agreed-upon procedures engagement was performed in
accordance with standards established by the American Institute of Certified Public Accountants and with
applicable Government Auditing Standards. The sufficiency of these Procedures is solely the
responsibility of the specified users of the report.

Consequently, we make no representations regarding the sufficiency of the Procedures described in the
Appendix either for the purpose for which this report has been requested or for any other purpose.

The Procedures and Findings of this engagement are included in the accompanying pages 2 through 5 of
this report.

We were not engaged to, and did not, perform an examination, with the objective of expressing an
opinion on whether the fee bills present fairly the expenses and activities of the cases for which they were
submitted. Accordingly, we do not express such an opinion. Had we performed additional procedures,
other matters might have come to our attention that would have been reported to you.

This report is intended solely for the use of OIG and FDIC, and should not be used by those who have not
agreed to the Procedures and taken responsibility for the sufficiency of the Procedures for their purposes.




March 26, 1999
Houston, Texas
                                     PEABODY & ARNOLD
                                   BOSTON, MASSACHUSETTS



                                            BACKGROUND
The FDIC incurs legal fees when attorneys and law firms are retained to assist the FDIC in litigation and
other legal services. The authority and responsibility for the retention of outside counsel, oversight of
services rendered, and approval of fee bills resides with the General Counsel and the Legal Division. The
OIG performs audits of fee bills, similar to other contract audits, to ensure that such claims are adequately
supported and comply with cost limitations set forth by the FDIC.

                          OBJECTIVE, SCOPE AND METHODOLOGY
The objective of the engagement was to determine whether the fee bills submitted by the firm were:
(1) adequately supported by source documentation, (2) prepared in accordance with the applicable
agreements, and (3) representative of the cost of services and litigation which was approved in advance
by the Legal Division. The engagement scope covered all FDIC payments made to the firm from
January 1, 1998 through December 31, 1998, which included 87 fee bills totaling $3,128,208.

Fieldwork included interviews and tests of transactions in the law offices of Peabody & Arnold in Boston,
Massachusetts. The engagement was conducted in accordance with standards established by the
American Institute of Certified Public Accountants and with applicable Government Auditing Standards
and, thus, included such tests of the accounting records and other procedures that we considered
necessary under the circumstances. We obtained an understanding of the internal control structure
related to the firm’s billing process. With respect to the internal control structure, we obtained an
understanding of the design of the firm’s billing policies and procedures and whether they have been
placed in operation. In addition, we reviewed the adequacy of the physical access to the on-line
electronic time and billing system, as well as, the related transaction trails. We assessed control risk in
order to determine our Procedures and for the purpose of evaluating the fees and expenses billed to the
FDIC and not to provide an opinion on the internal control structure. Accordingly, we do not express such
an opinion.

The fee bills were tested for adequacy of source documentation, compliance with the cost provisions of
the agreements in effect, and the appropriateness of the charges. The fee bills were tested for
compliance with the FDIC’s policies and procedures for submitting fee bills as included in the Guide for
Outside Counsel and the Legal Services Agreements (LSA’s) in effect between the FDIC and the firm.

In order to identify billed amounts disallowed by the Legal Division prior to our engagement, we compared
the amounts billed by the firm to the amounts paid by the FDIC. We have adjusted the questioned costs
in our report for costs previously disallowed to preclude duplication.

The Procedures tested covered relevant source documents supporting legal fee bills. The sampled fee
bills were reviewed in terms of two major components: fees for professional services (charges based on
hourly rates) and claims for reimbursable expenses such as telephone and courier services. A
preliminary exit conference was held with Peabody & Arnold representatives to discuss the preliminary
conditions at the end of on-site fieldwork.




                                                     1
                                    RESULTS OF AUDIT

We concluded that except for $4,037 in fees and expenses detailed in the Findings and
Recommendations section of this report, the invoices submitted by Peabody & Arnold, and paid by
the FDIC from January 1, 1998 through December 31, 1998, were supported by source
documentation, prepared in accordance with applicable agreements, and were representative of the
cost of services and litigation which was approved in advance by the Legal Division.

Questioned costs of $110 are related to fees at unauthorized hourly rates. Questioned costs of
$3,927 are related to excess long distance telephone charges and an unsupported courier charge.


                                Summary of Questioned Costs
                                                                      Finding        Questioned
                             Description                              Number           Costs

    Unauthorized Hourly Rates                                            1             $       110

       Subtotal Fees                                                                           110

    Excess Long Distance Telephone Charges                               2                   3,636

    Unsupported Courier Charge                                           3                     291

       Subtotal Expenses                                                                     3,927

       Total Fees and Expenses                                                         $     4,037


                        FINDINGS AND RECOMMENDATIONS
Unauthorized Hourly Rates

Peabody & Arnold billed the FDIC at hourly rates that exceeded those agreed to in the FDIC Legal
Services Agreement(s) or the Amendments thereto (collectively the LSA). Outside counsel must
provide legal services in accordance with the hourly rate structure set forth in the schedules attached
to the LSA. Hourly rates for one attorney were found on two invoices that exceeded the authorized
rate by an amount of $19 per hour. As a result, a total of $110 was billed in excess of the authorized
hourly rates.

Recommendation 1:

The Assistant General Counsel, Legal Operations Section, should disallow $110 for unauthorized
hourly rates.




                                                 2
Excess Long Distance Telephone Charges

Peabody & Arnold billed long distance telephone charges in excess of actual cost. FDIC agreements
and cost guidelines require that long distance charges represent actual costs. Our analysis of long
distance telephone charges included the selection of a representative sample of invoices paid by the
firm. We compared the amounts paid by the firm to amounts billed to the FDIC. Based on our
analysis, we determined that the firm charged an additional 88 percent, on average, for each long
distance call invoiced to the FDIC. Subsequently, we identified all of the long distance calls billed by
the firm and paid by the FDIC during the period January 1, 1998 through December 31, 1998 and
determined that a total of $3,636 was billed in excess of cost in connection with long distance
telephone charges.

Recommendation 2:

The Assistant General Counsel, Legal Operations Section, should disallow $3,636 for long distance
telephone charges in excess of cost.

Unsupported Courier Charge

Peabody & Arnold did not provide adequate support for a courier expense totaling $291 incurred by
the firm for a FDIC related matter. The Guide for Outside Counsel mandates law firms to retain
supporting documentation for all submitted expenses for a period of not less than four years after
date of final payment.

Recommendation 3:

The Assistant General Counsel, Legal Operations Section, should disallow $291 for an unsupported
courier charge.




                                                 3
                                                                                                    Appendix

                                        PEABODY & ARNOLD
                                      BOSTON, MASSACHUSETTS


                                                 PROCEDURES
Preliminary Field Work

1.   Obtained a listing of the population of legal fee invoices to be reviewed for FDIC payments from January 1, 1998
     through December 31, 1998 (the “Scope”).

2.   Obtained and reviewed copies of the FDIC Legal Services Agreements issued to the firm for the period of
     January 1, 1998 through December 31, 1998, as well as, the firm’s responses to the FDIC law firm
     questionnaire.

3.   Requested a summary of the firm’s usage of the FDIC Legal Research Bank (LRB), including the matters
     referenced.

4.   Obtained annotated copies of legal fee invoices from the FDIC, showing exceptions taken to the firm’s bills by
     case managing attorneys and fee bill review technicians.

5.   Obtained a completed management representation letter from the firm.

Evaluation of Electronic Billing System

6.   Determined that the firm had received the FDIC Legal Division’s letter regarding special requirements dated
     December 31, 1997.

7.   Determined that the firm’s computer system had a complete transaction trail through the Scope of the audit.

8.   Documented the controls pertaining to the computer system including assignment of unique user passwords,
     access to each application, access to the on-line information and on-line approval codes. Determined that the
     system was functioning as designed.

Evaluation of Fitness and Integrity

9.   Determined whether the firm requested and/or received any conditional waiver of a conflict of interest from
     OIG/FDIC.

10. Reviewed the firm’s malpractice insurance policy to determine the extent and duration of the firm’s coverage.

Review of Fees Paid

11. For the sample of 87 FDIC invoices (the Sample) selected by FDIC, we performed quantitative test work and
    validated the mathematical accuracy of the Sample.

12. Compared the names and billing rates used on all sampled invoices with the names and rates indicated on the
    LSA.

13. Selected a sample of attorneys who had devoted substantial time to FDIC related matters.

14. For the attorneys selected in the sample, reviewed timesheets for mathematical accuracy and scheduled total
    hours on a daily basis for one billing month. Reviewed schedules for reasonableness and obtained explanations
    for unusual entries.


                                                                                               Appendix, Continued




                                                          4
                                          PEABODY & ARNOLD
                                        BOSTON, MASSACHUSETTS


                                                  PROCEDURES
15. Determined the firm’s standard billing rates and compared them to the rates billed on the invoices in the sample.

16. Reviewed timesheets for selected Sample of invoices to determine if there had been any inefficiency indicated by
    excessive staff rotation on the projects.

17. Reviewed timesheets for selected sample of invoices to determine if there had been excessive research time,
    and to determine if the firm had used the FDIC’s “Research Bank.”

18. Reviewed selected Sample of invoices for extent of use of paralegals and summer help.

19. Reviewed timesheets and selected Sample of invoices to determine the firm’s billing policy on time spent for:

        ·   preparation of invoices,
        ·   traveling,
        ·   researching the firm’s own conflicts of interest, and
        ·   preparation of plans, budgets and status reports.

20. Reviewed a sample of deposition transcripts for:

        ·   amount of time spent and charged by the court reporters and the attorneys, and
        ·   unauthorized multiple attorneys who attended the depositions.

Review of Expenses Paid

21. For the Sample of invoices selected by the FDIC-OIG, performed an analysis of expenses charged; validated the
    mathematical accuracy of all invoices in the Sample and determined the percentage of the total expenses
    charged for each expense category.

22. Compared amounts billed for expenses charged to amounts paid by the firm to outside contractors to determine
    if billing had occurred at cost for the following categories:

        ·   document reproduction charges
        ·   outside database services,
        ·   deposition transcripts, hearing transcripts, court fees and filing fees, and
        ·   expert witness and consultant fees.

23. Evaluated the adequacy of supporting documentation for document reproduction charges, as well as the
    reasonableness of the quantities billed.

24. Verified that expenses billed were related to FDIC matters.

25. Examined expense charges to determine whether charges for outside database services were:

        ·   in compliance with the LSA and FDIC guidelines,
        ·   related to the applicable FDIC matters, and
        ·   adequately documented.

Other

26. Reviewed payments received from FDIC to determine whether any duplicate payments had been received by the
    firm.

27. Reviewed billing periods on invoices to determine whether the firm had double-billed FDIC for overlapping billing
    periods.




                                                             5
                                                                           APPENDIX I


MANAGEMENT COMMENTS AND OIG EVALUATION

On July 21, 1999, the General Counsel provided a written response to the draft report. The
response is presented in Appendix II to this report.

The Legal Division will disallow all the questioned costs in recommendations 1, 2, and 3,
totaling $110 for unauthorized hourly rates, $3,636 for long distance telephone charges in excess
of cost, and $291 for unsupported courier charges.

Appendix III presents management’s proposed action on our recommendations and shows that
there is a management decision for each recommendation in this report. After considering
information provided by the firm and management’s response to the draft report, we will report
questioned costs of $4,037 (including unsupported costs of $291) in our Semiannual Report to
the Congress.
        FDIC                                                                            Appendix II
         Federal Deposit Insurance Corporation
         Washington, D.C. 20429                                      Legal Division – Outside Counsel Unit




                                                               July 21, 1999

MEMORANDUM TO:                     David A. Switzer
                                   Deputy Inspector General




THROUGH:                           William F. Kroener, III
                                   General Counsel




                                   William S. Jones
                                   Supervisory Counsel



FROM:                              Chris J. Conanan
                                   Counsel

SUBJECT:                           Audit of Legal Fees and Expenses Paid by the FDIC to the Law
                                   Firm of Peabody & Arnold LLP (Boston, MA)

        This memorandum constitutes the Legal Division’s response to the draft audit report
(Exhibit A) of the Office of Inspector General (OIG) on payments made by the FDIC to the law
firm of Peabody & Arnold LLP (“Firm”). Our memorandum takes into account the Firm’s
responses, dated June 15 and 16, 1999, to the report (Exhibit B). The report covered $3,128,208
in fees and expenses paid to the Firm by the FDIC from January 1, 1998 through December 31,
1998. The report questioned $4,037 in costs paid by the FDIC to the Firm. The Firm does not
object to the findings of questioned costs. After reviewing the report and the Firm’s responses,
the Legal Division will disallow $4,037 in fees and expenses paid to the Firm.

        The Legal Division's position regarding each audit condition is explained below in the
order in which it appears in the report.

      Recommendation 1: The report recommends that the FDIC disallow $110 for
unauthorized hourly rates charged by one attorney on two invoices that exceeded the
authorized hourly rate for that attorney by $19 for 5.8 hours billed by that attorney.

       We have reviewed the hourly rates authorized for the Firm’s attorneys under the Legal
Services Agreement in effect for the audit period. The auditors correctly found in the report that
the attorney in question should have been billed at the hourly rate of $171 instead of the rate of
$190 as billed on the two invoices in question. Accordingly, the Legal Division will disallow
all questioned costs under this recommendation.

       Recommendation 2: The report recommends that the FDIC disallow $3,636 in long
distance telephone charges in excess of costs incurred by the Firm.

       The report questions $3,636 in excess of actual costs incurred by the Firm for long
distance phone calls. Our Guide for Outside Counsel (1996) makes it clear that the “FDIC will
only pay actual costs for services or supplies provided in the course of representation.” Guide at
34. The auditors reviewed the total population of long distance phone calls made by the Firm.
The auditors found that the cost billed the FDIC for long distance phone calls ($7,762) by the
Firm was greater than the actual cost of the long distance phone calls ($4,126) incurred by the
Firm under its telephone operating system.

        The Firm has explained that its telephone operating system initially establishes “a
reasonable approximation of the actual costs as determined by the [long distance telephone]
carrier at the time of billing [to the FDIC].” However, as conceded by the Firm the actual costs
incurred and ultimately paid by the Firm disclose “a slight discrepancy between what [the Firm]
pays and what [the Firm] pass[es] on to clients.” Firm Response of June 16, 1999 at 2.
Irrespective of the reason for the discrepancy, long distance phone calls are billed at
“approximate” cost, which turns out, in this case, to be greater than the Firm’s actual cost for the
calls. Accordingly, the Legal Division will disallow all questioned costs under this
recommendation.

       Recommendation 3: The report recommends that the FDIC disallow $291 of
courier expenses billed to the FDIC that were unsupported by any invoices from the
courier.

       The report questions $291 in courier expenses incurred by the Firm. The Firm could not
produce any supporting reliable supporting documentation for the expenses. Therefore, the
Legal Division will disallow all costs questioned under this recommendation.

        In summary, the Legal Division will seek to recover $4,037 in costs disallowed under this
memorandum. The Assistant General Counsel is authorized to make such minor accounting
corrections as may be required by the OIG but which do not affect the substantive positions
stated in this memorandum. The Legal Division expects to complete the collection process
within 90 days from the issuance of the final audit report by the OIG.


Attachments:
Tab A - OIG Draft Audit Report
Tab B - Firm’s Response (and Supplemental Response)




                                                 2
                                                                                                                                                                APPENDIX III

                                                      MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual reports to the Congress.
To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the response must describe for
each recommendation

    §   the specific corrective actions already taken, if applicable;
    §   corrective actions to be taken together with the expected completion dates for their implementation; and
    §   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement.
In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming completion
of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for management
decisions is based on management’s written response to our report.

                                                                                                       Documentation That                         Management
  Rec.                                                                          Expected                  Will Confirm           Monetary         Decision: Yes
 Number            Corrective Action: Taken or Planned/Status                Completion Date              Final Action           Benefits            or No



              The Assistant General Counsel, Legal Operations              90 days from issuance         Law Firm Refund            $110
    1                                                                                                                            disallowed            Yes
              Section, disallowed $110 for unauthorized hourly rates.       of Final Audit Report            Check
                                                                                                                                    costs


              The Assistant General Counsel, Legal Operations                                                                      $3,636
                                                                          90 days from issuance of       Law Firm Refund                               Yes
    2         Section, disallowed $3,636 for long distance telephone                                                             disallowed
                                                                             Final Audit Report              Check
              charges in excess of cost.                                                                                            costs
              The Assistant General Counsel, Legal Operations                                                                       $291
                                                                          90 days from issuance of       Law Firm Refund                               Yes
    3         Section, disallowed $291 for unsupported courier                                                                   disallowed
                                                                             Final Audit Report              Check
              charges.                                                                                                              costs
